September 2006
Report No. 06-023


Examiner Use of Home Mortgage
Disclosure Act Data to Identify Potential
Discrimination




             AUDIT REPORT
                                                                                                 Report No. 06-023
                                                                                                  September 2006


                                  Examiner Use of Home Mortgage Disclosure Act Data
                                  to Identify Potential Discrimination
                                  Results of Audit
Background and
                                  Overall, the FDIC makes appropriate use of available HMDA data during
Purpose of Audit
                                  compliance examinations to identify and assess instances of potential discrimination
                                  in FDIC-supervised institutions. Specifically, we found that for the 14 institutions
The Home Mortgage
                                  we reviewed, the FDIC used HMDA data to identify areas for review during
Disclosure Act (HMDA) was
enacted in 1975, and the          examinations.
Federal Reserve Board (FRB)
has statutory responsibility to   In addition, the FDIC has taken a positive step in instituting a project that requires
promulgate HMDA                   increased attention for institutions with higher-priced loans. The FDIC has
regulations. HMDA requires        identified 47 such institutions, completing reviews of 18 institutions as of July 2006,
mortgage lenders to annually      while another 5 institutions merged or changed charters without review. Potential
disclose data to the public on    discriminatory practices have been identified at five institutions. The FDIC’s Legal
mortgage loan applications,       Division is in the process of assessing the results of the reviews for four of the five
originations, and purchases of    institutions, and the remaining institution has been given the opportunity to respond
home mortgage, home               to potential discriminatory lending activities identified by the FDIC.
improvement, and refinancing
loans.                            However, we noted that FDIC guidance could be improved in the following areas:
                                   examiner reporting of HMDA examination findings,
The FDIC is required to
                                   the extent of review examiners recommend be performed by institutions when
assess HMDA compliance by
FDIC-supervised institutions.        examiners identify errors in HMDA data, and
Starting in 2004, institutions     the documentation of the lending relationships between institutions and
were required to include loan        residential mortgage brokers for HMDA reporting purposes.
interest rate pricing
information in HMDA data.         Clearer guidance could reduce inconsistencies in examiner (1) reporting of errors
The pricing information helps     and omissions in HMDA data and (2) handling of institutions’ resubmissions of
FDIC examiners in scoping         corrected HMDA data. Further, clarified guidance could provide the FDIC greater
fair lending examinations and     assurance that HMDA data reporting by FDIC-supervised institutions accurately
detecting loan pricing            reflects loan pricing disparities and that violations of fair lending laws have been
disparities that may warrant      identified. A greater understanding of the institution’s relationships with third
further investigation.            parties and the credit decision process would enable examiners to ensure that
                                  required disclosures are provided to the borrowers when credit decisions are made
The audit objective was to
                                  by third parties and that the institution is complying with HMDA reporting
determine whether the FDIC
                                  requirements.
makes appropriate use of
available HMDA data to
identify and assess instances     In addition, we identified another matter warranting management attention related to
of potential discrimination       examiner use of the required checklist to comprehensively document work
when examining an                 performed in reviewing HMDA data.
institution’s compliance with
relevant laws and regulations.    Recommendations and Management Response

                                  The report recommends that DSC (1) clarify examiner guidance related to reporting
                                  HMDA examination findings and handling institutions’ review and resubmission of
                                  corrected HMDA data, (2) provide additional examiner guidance on how to
                                  document third-party residential mortgage lending relationships for HMDA
                                  reporting purposes, and (3) emphasize examiner completion of the required checklist
To view the full report, go to
                                  for HMDA reviews to document work performed. The FDIC agreed or generally
www.fdicig.gov/2006reports.asp
                                  agreed with the recommendations and is taking responsive actions.
                                TABLE OF CONTENTS

BACKGROUND                                                                      2
  FRB Analysis of the New HMDA Data                                             3
  FDIC Analysis of the New HMDA Data                                            4

RESULTS OF AUDIT                                                                 5

FDIC PROJECT TO ASSESS INSTITUTIONS IDENTIFIED                                   6
AS HAVING HIGHER-PRICED LOANS
  Reviews of HMDA Outlier Banks                                                  7

COMPLIANCE EXAMINATION GUIDANCE                                                  8
  Reporting Results of Reviews of HMDA Data                                      8
  Reviews of HMDA Data for Resubmissions to the FRB                             10
  Conclusion                                                                    10
  Recommendation                                                                11

DOCUMENTION OF THIRD-PARTY CREDIT RELATIONSHIPS AND                             11
EXAMINATION WORK PERFORMED
  Documentation Requirements for Third-Party Credit Relationships               11
  Examination Workpaper Documentation of Third-Party Relationships              12
  Conclusion                                                                    13
  Recommendation                                                                13

OTHER MATTER WARRANTING MANAGEMENT ATTENTION                                    13
  Documentation of Examination Work Performed                                   13
  Recommendation                                                                14

CORPORATION COMMENTS AND OIG EVALUATION                                         14

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                   15

APPENDIX II: HOME MORTGAGE DISCLOSURE ACT OF 1975                               19

APPENDIX III: FDIC OUTLIER SCREENING CRITERIA                                   21

APPENDIX IV: CORPORATION COMMENTS                                               24

APPENDIX V: MANAGEMENT RESPONSE TO RECOMMENDATIONS                              26

TABLES:
Table 1: FDIC-Supervised 2004 HMDA Reporters Identified as Outliers              6
Table 2: Types of Disparities and Potential Discrimination Identified by FDIC    7
         HMDA Outlier Review Project
Federal Deposit Insurance Corporation
                                                                            Office of Audits
3501 Fairfax Drive, Arlington, Virginia 22226                  Office of Inspector  General
______________________________________________________________________________


DATE:                                 September 28, 2006


MEMORANDUM TO: Sandra L. Thompson, Acting Director
               Division of Supervision and Consumer Protection




FROM:                                 Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                      Assistant Inspector General for Audits

SUBJECT:                              Examiner Use of Home Mortgage Disclosure Act Data to Identify
                                      Potential Discrimination (Report No. 06-023)


This report presents the results of the Office of Inspector General’s (OIG) audit of the FDIC’s
use of Home Mortgage Disclosure Act (HMDA) data during compliance examinations of FDIC-
supervised institutions. The audit objective was to determine whether the FDIC makes
appropriate use of available HMDA data to identify and assess instances of potential
discrimination when examining an institution’s compliance with relevant laws and regulations.
The FDIC’s Division of Supervision and Consumer Protection (DSC) is responsible for
examining and supervising insured financial institutions to ensure they operate in a safe and
sound manner and that consumers' rights are protected.

To address our objective, we assessed the FDIC’s examination procedures related to the use of
HMDA data during compliance examinations and examiner compliance with those procedures.
Also, we reviewed the project established by the FDIC to conduct additional reviews of FDIC-
supervised institutions with higher-priced loans.1 Details on our objective, scope, and
methodology are in Appendix I of this report.

We did not review examiner assessments of institutions’ compliance management systems.
Examiners perform these assessments to determine whether institutions have weaknesses that
could result in current or future noncompliance with consumer protection laws, such as HMDA.
We plan to conduct a follow-on audit of the FDIC’s examination process for assessing the
adequacy of institutions’ compliance management systems, which include board management
and oversight, policies, procedures, training, monitoring, and audits.




1
 As of 2004, lenders must disclose certain pricing information for loans with prices above designated thresholds.
Loans priced above the thresholds are referred to as “higher-priced” loans.
BACKGROUND

HMDA was enacted by the Congress in 1975, and the Federal Reserve Board (FRB) has
statutory responsibility to promulgate HMDA regulations.2 HMDA applies to certain financial
institutions, including banks, thrifts, credit unions, and other mortgage-lending institutions.3
HMDA requires mortgage lenders to annually disclose data to the public about the geographic
distribution of their loan applications, originations, and purchases of home mortgage, home-
improvement, and refinancing loans.4 HMDA grew out of public concern over credit shortages
in certain urban neighborhoods. Specifically, HMDA requires lenders to report data on the
ethnicity, race, gender, and income of applicants and borrowers, as well as pricing data on
certain loans. HMDA also directs the Federal Financial Institutions Examination Council
(FFIEC)5 to make summaries of the data available to the public.

In 2002, the FRB amended Regulation C, which implements HMDA, to include new loan pricing
data (for detailed information, see Appendix II). Additionally, the FRB revised racial and ethnic
categories to reflect recent changes to the Office of Management and Budget (OMB) racial and
ethnic standards for federal statistics and administrative reporting and to conform to Census
Bureau definitions.6 Further, lenders must ask applicants their ethnicity, race, and gender for
loan applications received by telephone, mail, or the Internet. These changes allow examiners to
more accurately identify and compare applicants on the basis of race and ethnicity.

Regulation C, as amended, required banks to submit the new 2004 HMDA data to the FRB by
March 1, 2005, and to continue annual reporting thereafter. Specifically, institutions subject to
HMDA are required to record and report interest-rate pricing information pertaining to the:

¾ spread between the annual percentage rate (APR) and the applicable Treasury yield if the
  spread is equal to or greater than 3 percentage points for originated, first-lien home mortgage,
  refinancing, and dwelling-secured home improvement loans;




2
  Federal Reserve Board Regulation C (12 Code of Federal Regulations (C.F.R.) Part 203) implements HMDA.
HMDA Section 305(a), Enforcement, indicates that the FDIC has the authority to enforce HMDA provisions for
FDIC-supervised institutions, in accordance with Section 8 of the Federal Deposit Insurance Act.
3
  Banks, savings and loan associations, credit unions, and mortgage and consumer finance companies are required to
report HMDA data if those institutions meet the law’s criteria for coverage by HMDA. Generally, a lender may be
subject to HMDA depending on: the lender’s asset size, whether the lender has an office in a metropolitan statistical
area (as defined by the Office of Management and Budget), and the extent of the lender’s housing-related lending
activity.
4
  Information about each application or loan and about each applicant or borrower is reported on a loan-by-loan,
application-by-application basis on a lender’s loan application register (LAR).
5
  The FFIEC, established in March 1979, is a formal interagency body empowered to prescribe uniform principles,
standards, and report forms for the federal examination of financial institutions by the FRB, the FDIC, National
Credit Union Administration (NCUA), Office of the Comptroller of the Currency, and Office of Thrift Supervision
and to make recommendations to promote uniformity in the supervision of financial institutions.
6
  According to the OMB Federal Register Notice entitled, Revisions to the Standards for the Classification of
Federal Data on Race and Ethnicity, there are five minimum categories for data on race: American Indian or
Alaska Native, Asian, Black or African American, Native Hawaiian or Other Pacific Islander, and White. Also,
there are two categories for data on ethnicity--Hispanic or Latino and Not Hispanic or Latino.


                                                         2
¾ spread between the APR and applicable Treasury yield if the spread is equal to or greater
  than 5 percentage points for originated, subordinate-lien home mortgage, refinancing, and
  dwelling-secured home improvement loans; and

¾ loans that exceed the Home Ownership and Equity Protection Act (HOEPA) triggers for each
  originated or purchased loan.7

The addition of rate spread and HOEPA information to the HMDA data provides examiners with
additional tools to scope and focus the fair lending portion of compliance examinations. HOEPA
imposes restrictions on certain loan features, including balloon payments and prepayment
penalties, and requires improved disclosures for customers. Identifying these loans helps
examiners detect abusive practices that have accompanied some of these loans in the past.

The FDIC is responsible for evaluating FDIC-supervised financial institutions’ compliance with
federal consumer protection laws and regulations.8 Two federal statutes specifically prohibit
discrimination in lending: the Fair Housing Act (FHA), enacted by Title VIII of the Civil Rights
Act of 1968; and the Equal Credit Opportunity Act of 1974 (ECOA).9 Examiners use HMDA
data to assist in evaluating institution compliance with the anti-discrimination laws and other
consumer protection laws in order to determine the scope of the fair lending portion of a
compliance examination and select loan applications for the purposes of comparison of treatment
by the lending institution.

FRB Analysis of the New HMDA Data

In September 2005, the FRB published its first study of the new expanded HMDA data entitled,
New Information Reported under HMDA and Its Application in Fair Lending Enforcement
(Study). The FRB Study confirmed a commonly held belief about mortgage prices:
“Traditionally underserved minority groups were more likely than other populations to pay
higher prices for mortgages.” Specifically, the differences in patterns across racial and ethnic
groups were significant, and it was clear that most minority groups were much more likely to get
higher-priced loans than Whites. The Study reported that a much higher share of mortgages

7
  Congress enacted the HOEPA in response to evidence of abusive mortgage lending, particularly lending that
involves excessive interest rates and fees. HOEPA identifies a class of high-cost mortgage loans and requires that
consumers who enter into these transactions be provided with additional disclosures intended to facilitate
comparison with other loan products. HOEPA also restricts the use of certain loan terms associated with abusive
lending and authorizes the FRB to issue regulations that prohibit specific types of mortgage lending practices found
to be abusive.
8
  As part of the compliance examination process, the FDIC reviews the information and disclosures that are
provided to consumers by FDIC-supervised institutions in accordance with consumer protection laws and
regulations. Also, DSC considers an institution's compliance with fair lending, privacy, and other consumer
protection laws and its performance under the Community Reinvestment Act (CRA) when reviewing an institution's
application for entry into or expansion within the insured depository institution system.
9
  The FHA prohibits discrimination in various phases of housing and makes it unlawful for any lender involved in
residential real-estate-related transactions to discriminate against any persons in making those transactions available,
or in the terms and conditions of those transactions, because of race, color, religion, national origin, gender, familial
status, or handicap. The ECOA prohibits discrimination in any aspect of a credit transaction on the basis of race,
color, religion, national origin, gender, marital status, age, receipt of income from a public assistance program, and
the good faith exercise of any right under the Consumer Credit Protection Act of 1968.


                                                           3
were higher priced for Black and Hispanics than for non-Hispanic Whites or Asians and that
much racial and ethnic disparity in higher-priced lending was a result of the choice of lending
institutions. Blacks and, to a lesser extent, Hispanics were much more likely than Whites to
apply to institutions that typically originated higher-priced mortgages to applicants of all races
and ethnicities.

The new collection and reporting requirements provide an improved starting point for identifying
potential discriminatory practices. However, the FRB cautioned that even with the new data, it is
important to note that analysis of the HMDA data alone cannot identify discriminatory lending
practices. For example, the HMDA data, while providing some red-flag indicators of potential
discrimination, do not include information on the creditworthiness of borrowers or other pricing
factors (such as loan-to-value ratios or credit scores) that a bank may use in pricing loans.

According to the FRB, institution-specific analyses are essential in determining whether loan-
pricing differences, in fact, reflect discriminatory treatment of minority groups. Examining an
institution for which loan pricing differences (based on race, ethnicity, or gender) are statistically
significant and for which purely objective pricing factors (such as loan-to-value ratios or credit
scores) cannot explain pricing differences, requires a review of loan files; discussions with
management or loan personnel about possible reasons for the differences; evidence to support
explanations provided by management or loan personnel for pricing differences; interviews with
customers, where necessary, regarding their experiences with the lender; and a careful vetting of
an institution’s policies, procedures, and actual practices.

FDIC Analysis of the New HMDA Data

According to the FDIC’s Division of Insurance and Research (DIR), the new HMDA
information on loan interest-rate pricing will help policymakers assess concerns about mortgage
pricing from both a fair lending and consumer protection perspective. The 2,817 FDIC-
supervised institutions that reported 2004 HMDA data account for 31.8 percent of the 8,853
institutions and mortgage companies reporting these data. DIR’s analysis of the 2004 HMDA
pricing data showed that these FDIC-supervised institutions:

¾ accounted for 8.6 percent of loan originations (1.3 million of the total 15.0 million reported
  loans) in the 2004 HMDA data, and

¾ reported 222,000 loans with rate spreads above the HMDA price-reporting threshold; these
  “high-rate” loans comprised about 17 percent of the 1.3 million loans.10

It is DSC’s opinion that the expanded HMDA data collection and reporting requirements provide
examiners more readily available data for initial analysis, which should improve the efficiency
and quality of the scoping process for the fair lending portion of the compliance examination and
subsequently enhance the examiners' ability to identify loan-pricing concerns that warrant further
investigation.


10
  Technically, high-rate loans totaled 18.3 percent of loans, net of those excluded, because some HMDA data
included loan applications prior to 2004.


                                                        4
The new HMDA pricing information has been of significant interest to many public and private
groups, including consumer groups, community groups, federal regulators, and congressional
committees. The federal regulatory agencies also use the data in conjunction with CRA
performance evaluations.


RESULTS OF AUDIT

The FDIC makes appropriate use of available HMDA data during compliance examinations to
identify and assess instances of potential discrimination in FDIC-supervised institutions.
Examiners are following prescribed procedures for analyzing HMDA data during regularly-
scheduled compliance examinations. Specifically, we found that examiners verified and used the
HMDA data to identify areas for review during examinations.

In addition, the FDIC has instituted the HMDA Pricing Data Outlier Project, which uses the new
HMDA data and requires additional analyses and expanded reviews of institutions identified as
having higher-priced loans. As of July 2006, the FDIC had identified five institutions engaged in
potential discriminatory practices. The HMDA Pricing Data Outlier Project, explained in detail
in the following section of the report, is an expanded and positive use of the HMDA data by
DSC (see FDIC Project to Assess Institutions Identified as Having Higher-Priced Loans).

However, we found that the FDIC could improve compliance examination guidance related to
HMDA. The guidance does not specifically address how examiners should report errors and
omissions in HMDA data and does not clearly articulate the time period for which banks should
be required to review HMDA-reportable loans after examiners have identified errors in the
HMDA data. Clearer guidance could reduce inconsistencies in examiner (1) reporting of errors
and omissions in HMDA data and (2) handling of institutions’ resubmissions of corrected
HMDA data. Further, clarifying guidance could provide the FDIC more assurance that HMDA
data reporting by FDIC-supervised institutions accurately reflects loan pricing disparities and
that violations of fair lending laws have been identified (see Compliance Examination
Guidance).

Additionally, for our sample of 14 institutions, we noted that examiner workpapers did not fully
explain the bank’s relationships with brokers, investors, and correspondents (third parties) or
which entity was responsible for making final credit decisions on loan applications. A greater
understanding of the institution’s relationships with third parties and the credit decision process
would enable examiners to ensure that required disclosures are provided to the borrowers when
credit decisions are made by third parties and that the institution is complying with HMDA
reporting requirements (see Documentation of Third-Party Credit Relationships and
Examination Work Performed).

In addition, we identified another matter warranting management attention related to examiner
completion of the required checklist to document work performed in reviewing HMDA data (see
Other Matter Warranting Management Attention).




                                                 5
FDIC PROJECT TO ASSESS INSTITUTIONS IDENTIFIED AS HAVING HIGHER-
PRICED LOANS

The FDIC has instituted a project to annually identify HMDA-reporting institutions with higher-
priced loans. The FDIC refers to such institutions as “outliers,” which have the largest pricing
disparities for a given loan product and for a given racial, ethnic, or gender minority group. The
FDIC has identified 47 FDIC-supervised institutions as HMDA outliers. In early 2005, DSC:

¾ Issued examiner guidance in Transmittal 05-006 entitled, Considering the New Home
  Mortgage Disclosure Act (HMDA) Pricing Information when Conducting Fair Lending
  Examinations of Institutions Subject to HMDA, dated March 2, 2005.

¾ Developed screening criteria to identify the outliers upon receipt of the HMDA data from the
  FRB (additional information is available in Appendix III).

¾ Submitted the outlier project as a proposed 2006 Corporate Performance Objective.

The FDIC established the HMDA Pricing Data Outlier Project as a 2006 Corporate Performance
Objective with the goal of starting all of the onsite reviews of HMDA outliers by the end of
2006; however, not all of the onsite reviews will be completed in 2006. Institutions whose data
show unusual loan pricing disparities for minorities or women will be subject to accelerated
reviews (if not already scheduled for compliance examinations in 2006) and increased scrutiny to
assess potential discriminatory or other illegal credit practices. Both DSC and DIR are involved
in the outlier project and have a memorandum of agreement that captures the focus of the project
and the commitment by each division.

As of July 25, 2006, reviews for 23 of the 47 outliers had been resolved. For 18 of the 23
outliers, the FDIC has completed the reviews, and no violations were found; the other 5 outliers
had merged or changed charters without FDIC review.11 Nine reviews were in progress as of the
time of our audit field work, and the remaining 15 reviews will be initiated by the end of 2006.
Table 1 below summarizes the status of the outlier reviews.

Table 1: FDIC-Supervised 2004 HMDA Reporters Identified as Outliers
                                                                                 Reviews              Reviews
         Total Outliers by            Resolved             Reviews in         Scheduled for        Scheduled for
              Region                  Reviews*              Progress           3rd Quarter          4th Quarter
                                                                                   2006                 2006
     Atlanta (16)                         8                     2                    2                    4
     Dallas (20)                          7                     4                    4                    5
     Kansas City (1)                      1                     0                    0                    0
     Chicago (6)                          4                     2                    0                    0
     New York (4)                         3                     1                    0                    0
     Totals: (47)                         23                    9                    6                    9
* Includes five reviews not performed due to mergers or charter changes.

11
  According to DSC, the FDIC outlier list contains only preliminary scoping information – not evidence of
violations. However, when an institution on the list changes its charter, the FDIC will offer its preliminary
information to the federal regulator with enforcement jurisdiction.


                                                          6
Reviews of HMDA Outlier Banks

The FDIC’s outlier project includes a supervisory and examination strategy to identify
institutions that pose a significant risk for discriminatory or abusive lending practices as follows:

¾ Regional and field offices review the outlier list and identify institutions that pose less risk
  because recent examinations indicate that loan pricing policies are standardized, based on
  risk, and applied uniformly with little or no discretion.

¾ The remaining institutions that pose more risk complete a questionnaire, providing
  explanations for pricing disparities and pricing policies and practices.

¾ Regional and field offices prioritize the institutions that require visitations and fair lending
  examinations, focusing on higher-priced loans.

¾ DSC plans a schedule of visitations and examinations for these institutions.

In addition, DIR provides ongoing analytical assistance to DSC examiners in processing HMDA
data related to higher-priced loans if the examiners need more in-depth analyses of the data.
This is done at the request of the DSC Headquarters Senior Fair Lending Specialist.

According to DSC management, although HMDA data do not include creditworthiness,
underwriting, or evaluation criteria and other information necessary to conclusively identify
abusive or discriminatory lending, the data are sufficient to indicate whether further review is
required. To date, it appears likely that five of the nine reviews in progress may result in
discrimination findings for the outlier institutions. For four of those five institutions, the FDIC’s
Legal Division is preparing a legal opinion based on the results of the reviews, and the remaining
institution has been notified of its review results and given the opportunity to respond to the
potential discriminatory lending activities identified by the FDIC. Table 2 below summarizes the
types of disparities identified by HMDA outlier screening of the 47 institutions with potential
discriminatory practices.

Table 2: Types of Disparities and Potential Discrimination Identified by FDIC HMDA
Outlier Review Project
     FDIC                              Type of HMDA Data Disparity *                    Institutions
 Regional Office                                                                       with Potential
                          Disparities in           Disparities in     Disparities in
  (Number Of                                                                           Discriminatory
                          Average Rate         Incidence of Higher-    Incidence of
  Institutions)                                                                           Practices
                             Spread                Priced Loans       HOEPA Loans
Atlanta (16)                     8                      9                  4                 2
Dallas (20)                      5                      14                 4                 3
Kansas City (1)                  0                      1                  1                 0
Chicago (6)                      1                      3                  0                 0
New York (4)                     0                      4                  1                 0
Total: 47                       14                      31                 10                5
* Some institutions are cited in multiple categories.




                                                         7
According to a DSC official, it is doubtful that the issues identified at the five institutions would
have been identified without the new expanded HMDA data and the outlier screening techniques.


COMPLIANCE EXAMINATION GUIDANCE

We found that the FDIC could improve compliance examination guidance related to HMDA.
The guidance does not specifically address how examiners should report errors and omissions in
HMDA data and does not clearly articulate the extent to which financial institutions need to
review and correct data in order to resubmit it to the FRB. Clearer guidance could reduce
inconsistencies in examiner (1) reporting of errors and omissions in HMDA data and
(2) handling of institutions’ resubmissions of corrected HMDA data. Further, clarified guidance
could provide the FDIC greater assurance that HMDA data reporting by FDIC-supervised
institutions accurately reflects loan pricing disparities and that violations of fair lending laws
have been identified.

Reporting Results of Reviews of HMDA Data

DSC guidance could be improved in relation to examiner reporting of errors and omissions in
HMDA data for the period covered by the examination. Specifically, current FDIC compliance
examination guidance does not specifically address how errors and omissions of current year
HMDA data12 should be presented in the examination report. Corporate-wide guidance could
reduce inconsistent compliance reporting by examiners and ensure violations are being reported
when appropriate. In addition, the FDIC could have greater assurance that negative trends or
new problems with institution processes for compiling and recording HMDA data are reported.

For 9 of the 14 institutions in our sample, examiners found HMDA errors or omissions during
the compliance examinations. For eight of those nine institutions, examiners explained the
nature of their findings in the compliance examination reports. However, for the remaining
institution, the examination report did not include a summary of findings on the institution’s
current year HMDA data.13

During the examination of the institution in question, the DSC examiner found that the
institution had omitted 68 applications from its 2005 HMDA data, which had not yet been
submitted to the FRB. The institution’s current year HMDA data included only 17 applications
that had resulted in loans and did not include those 68 applications that had been either
withdrawn or denied. The examiner discussed the 68 omissions in the data with bank
management, who agreed to correct the error. In addition, the examiner made a recommendation
in the compliance examination report that the bank record all secondary market applications
withdrawn or denied in the 2005 HMDA data. However, the examination report did not
specifically discuss the 68 loan applications that had been omitted from the bank’s HMDA data.



12
  Current year HMDA data are data that have not yet been submitted to the FRB.
13
  While one of eight institution examinations is not a high noncompliance rate, we consider the materiality of the
failure to report all withdrawn or denied applications and the related regional policy to be significant.


                                                         8
Prior to the examination of this institution, the responsible regional office (RO) conducting the
examination contacted DSC-Washington for clarification regarding when errors and omissions
should be mentioned in the compliance examination report and was informed that the Regional
Director could make that determination. As a result, the RO adopted a policy that it would not
report findings on errors or omissions in HMDA data if the errors or omissions are found in
current year data, prior to submission to the FRB by the bank. The RO guidance issued on
August 9, 2004, entitled, Compliance Update, addresses current year violations of the HMDA
data requirements as follows:

        If errors or omissions are detected in CY [current year] HMDA application data, do not
        cite a violation in the compliance report. Section 203.6(b) of FRB Regulation C
        provides that bona fide errors are not violations if the error was unintentional, occurred
        despite the maintenance of procedures reasonably adapted to preclude such violations,
        and provided the bank corrects and completes the information prior to the submission of
        the loan application register to its regulatory agency. Comments relating to CY HMDA
        data errors or omissions can be included on the Examiner’s Comments and
        Conclusions pages at the discretion of the examiner. (Emphasis added.)

According to RO management, the regional policy was influenced by the fact that two other
federal banking agencies in the region do not cite current-year HMDA data compilation and
recording errors as violations in their examination compliance reports because FRB Regulation C
allows financial institutions the opportunity to correct the data before the March 1 reporting
deadline of the following year.

The RO guidance is partially consistent with Regulation C requirements in that errors and
omissions in current year HMDA are not considered violations in some circumstances, including
when the mistakes are corrected before submission of the HMDA data to the FRB. However,
neither the RO policy nor DSC guidance defines how current year HMDA data examination
findings should be discussed in the examination report, which can lead to inconsistencies in
examiner reporting of such cases. As a result, negative trends or new problems with institution
processes for compiling and recording HMDA data might go unreported.

Additionally, the FDIC’s Compliance Examination Manual notes that “current calendar year
HMDA data recording errors may also be violations of FDIC Rules and Regulations Part 338.8:
Fair Housing.”14 An examiner’s decision to omit current year HMDA data errors and omissions
from the compliance examination report could, therefore, lead to other violations not being
reported.

To ensure consistency in examiner reporting of errors and omissions and consideration of
possible related violations, the FDIC Compliance Examination Manual should be revised to
address errors or omissions in HMDA data that warrant reporting by examiners.


14
  FDIC Rules and Regulations, Fair Housing: Section 338.8, Compilation of loan data in register format, states,
“Banks and other lenders required to file a Home Mortgage Disclosure Act loan application register (LAR) with the
Federal Deposit Insurance Corporation shall maintain, update and report such LAR in accordance with Regulation C
of the Board of Governors of the Federal Reserve System.”


                                                       9
Reviews of HMDA Data for Resubmissions to the FRB

DSC examination guidance does not clearly articulate the time period for which banks should be
required to review HMDA-reportable loans after examiners have identified errors in the HMDA
data. Examiners found inaccurate data for 9 of the 14 banks we reviewed. However, examiner
recommendations to review and resubmit corrected data were inconsistent as illustrated below:

¾ In three cases, the bank was required to review all HMDA data for the period covered by the
  examination before resubmitting the data to the FRB.
¾ In four cases, the bank was not required to review the HMDA data for the period or resubmit
  corrected data to the FRB.

For the remaining two cases, one institution was cited with a significant violation because the
bank was not consistently requesting required HMDA data. The institution was required to
develop written procedures and implement additional training. In the second instance, the
institution had failed to collect and report any 2004 HMDA data and was, therefore, required to
collect and report this data. Neither of the institutions was required to resubmit HMDA data.

Part III of the Compliance Examination Manual, dated July 1999, entitled, HMDA Disclosure
and Reporting, directs examiners to determine errors that occurred during the previous reporting
period and, if errors did occur, the steps the financial institution took to correct and/or prevent
such future errors. The manual also states that “the institution should review 1-3 years of
HMDA-LAR data to correct significant inaccuracies.”

Verification of accuracy is critical because HMDA data errors may also be violations of FDIC
Rules and Regulations, Section 338.8, Fair Housing. The manual states that errors in the data
columns entitled, Race, Gender, Income, Type of Action Taken, and Census Tract would
significantly affect the examiner’s decision that the bank should resubmit the data. However, the
manual does not define “significant inaccuracies” nor explain the 1-3 year period of HMDA data
the financial institution should review in order to correct inaccuracies.

Conclusion

DSC examination guidance could be improved in relation to examiner reporting of errors or
omissions in HMDA data. Separate regional office policies regarding when HMDA data errors
and omissions are reported in compliance examinations or the time period of financial institution
review of HMDA data in order to correct inaccuracies could result in examination
inconsistencies nationwide. An institution’s failure to provide accurate HMDA data may distort
bank data disclosed to the public, interfering with the public’s evaluation of an institution’s
performance and resulting in serious consequences to the public perception of the banking and
mortgage lending industries and the distribution of public-sector investments. Revising guidance
to address examination reporting of errors or omissions will assist examiners in identifying
institutions with possible discriminatory lending patterns or that may be violating fair lending
laws. Guidance should be further revised to define “significant inaccuracies” and to specify the
extent to which financial institutions need to review the data in order to resubmit it to the FRB.




                                                10
Recommendation

We recommend the Director, DSC:

(1) Revise the Compliance Examination Manual guidance to specify when and how errors and
    omissions of current year HMDA data should be reported in compliance examination reports,
    define significant inaccuracies, and identify the extent of financial institution review of
    HMDA data in order to resubmit corrected HMDA data to the FRB.


DOCUMENTION OF THIRD-PARTY CREDIT RELATIONSHIPS AND
EXAMINATION WORK PERFORMED

Examiner workpapers did not always document the bank’s relationships with brokers, investors,
and correspondents15 or which entity was responsible for making final credit decisions on loan
applications. Fair lending review procedures require examiners to document the credit decision-
making process of institutions during the scoping stage of the review, which would include the
entity that makes the credit decision when the bank has entered into relationships with brokers,
investors, or correspondents (hereafter referred to as third parties). In general, the entity making
the credit decision is required to report the HMDA data. When a HMDA-reporting institution
makes a credit decision for a loan through a third party, the institution rather than the third party
reports the loan for HMDA purposes. A greater understanding of the institution’s relationships
with third parties and the credit decision process would enable examiners to ensure that required
disclosures are provided to the borrowers when credit decisions are made by third parties and
that the institution is complying with HMDA-reporting requirements.

Documentation Requirements for Third-Party Credit Relationships

The FFIEC Interagency Fair Lending Examination Procedures, revised August 19, 2004, states
that examiners should focus the compliance examination based on: an understanding of the
credit operations of the institution, the risk that discriminatory conduct may occur in each area of
those operations, and the feasibility of developing a reliable record of an institution's
performance and fair lending compliance in each area of those operations. In addition, the
FFIEC guidance requires examiners to determine how the financial institution ensures that the
home mortgage disclosure information is properly compiled and disclosed. Examiners must
make this determination for the institution and any third parties responsible for the credit
decision.

The FFIEC publication entitled, A Guide to HMDA Reporting: Getting It Right!, states that when
an institution subject to HMDA requirements makes a loan through a third party such as a
broker, the institution, rather than the third party, reports the loan. HMDA data on loan
applications that do not result in loan originations must also be reported by the entity that makes

15
  For the purpose of HMDA reporting, a financial institution that processes a loan application and arranges for
another institution or investor to acquire the loan at settlement is acting as a “broker.” An institution that acquires a
loan from a broker at or after closing is acting as an “investor.” “Correspondents” are companies that usually close
and fund loans in their own name and subsequently sell them to a lender.


                                                           11
the credit decision. Further, the FFIEC guide contains, Appendix D: Official Staff Commentary
on Regulation C, which explains that a broker may or may not make a credit decision on an
application (and thus the broker may or may not have reporting responsibilities) as follows:

¾ If the broker makes a credit decision, it reports that loan; if the broker does not make a credit
  decision, it does not report the loan.
¾ If an investor (an institution) reviews an application and makes a credit decision prior to
  closing the loan, the institution reports the loan.
¾ If the investor (institution) does not review the application prior to closing, the institution
  reports only the loans that it purchases; it does not report the loans it does not purchase.
¾ If an institution makes a credit decision on an application prior to closing the loan, the
  institution reports that loan, regardless of who closes it.

The Compliance Examination Manual, Part III, Understanding Credit Operations, states that
before evaluating the potential for discriminatory conduct, the examiner should review sufficient
information about the institution and its market to understand the credit operations of the
institution and the representation of prohibited basis group residents16 within the markets where
the institution does business. According to the manual, relevant background information
includes the institution’s organization of its credit decision-making process, including
identification of the delegation of separate lending authorities and the extent to which discretion
in pricing or setting credit terms and conditions is delegated to various levels of managers,
employees, or independent brokers or dealers. Further, where an institution has multiple
underwriting or loan processing centers or subsidiaries, each with fully independent credit-
granting authority, the examiner should consider evaluating each center and/or subsidiary
separately, provided a sufficient number of loans exists to support a meaningful analysis.

Examination Workpaper Documentation of Third-Party Relationships

DSC examiners did not always fully document in the workpapers the banks’ mortgage lending
relationships with third parties. Our review of examination workpapers for the 14 institutions in
our sample showed that 8 institutions had a relationship with a third party in the origination of
residential mortgage loans. However, as illustrated in the following examples, examination
workpapers for these institutions did not fully explain the banker-third party relationship.

¾ The workpapers for one institution indicated that a majority of the loans were “handled by a
  third-party mortgage group.” No further details were provided, and the examiner’s report of
  examination stated that the institution did not report the loans in its HMDA data.

¾ One institution designated one branch to perform residential lending as a broker for the
  institution. We could not determine from the workpapers where the final credit decisions
  were made. Further, the loans were not included in the institution’s HMDA data.

¾ One institution that was acting as a broker was not making the credit decision. The
  institution correctly did not include the loans in its HMDA data, but the workpapers did not
  document the broker-lender relationship of the institution.
16
     The FHA defines prohibited basis as race, color, religion, national origin, gender, familial status, and handicap.


                                                             12
In the current residential real estate market, 68 percent of loans involve brokers.17 According to
the Mortgage Bankers Association, over the last 10 to 15 years, new breeds of broker-lender
relationships and subsequent transactions have presented a number of legal issues that could
affect financial institutions. As a result, it is important for examiners to fully understand which
entity is making the credit decision and how it is being made in order to adequately assess
whether an institution is reporting all HMDA-reportable loans, monitoring the activities of
brokers and correspondents that make loans on behalf of the institutions, and providing full
disclosure to applicants regarding the terms and conditions of their loans.

Conclusion

Compliance examination guidance states that an examiner should review relevant background
information to understand the credit operations of an institution, including its third-party
relationships involving credit decisions. Documentation of these relationships in the
examination workpapers helps to ensure that required disclosures are provided to the borrowers
when credit decisions are made by third parties and that additional reporting or resubmission of
HMDA data is required when the bank acts as the broker and makes the credit decision.

Recommendation

We recommend the Director, DSC:

(2) Provide additional examination guidance on how to determine and document third-party
    residential mortgage lending relationships for HMDA-reporting purposes.


OTHER MATTER WARRANTING MANAGEMENT ATTENTION

Documentation of Examination Work Performed

During the course of our review, we observed that examiners are not fully documenting HMDA-
related examination work. For the 14 banks we reviewed, we found only 1 instance in which the
examiners used the required checklist format to document the review of HMDA data. For the
remaining 13 banks, evidence in workpapers was difficult for us to locate in order to conclude
that examiners had reviewed procedures, training, and controls for HMDA reporting in reference
to the banks’ compliance management system.

DSC Transmittal No. 2004-015 entitled, Revised Interagency Examination Procedures for the
Home Mortgage Disclosure Act, dated May 3, 2004, contains a checklist of examination
procedures that address an institution’s HMDA policies and procedures, processes for the
collection and compilation of loan data, and disclosure and reporting requirements. Specifically,
the transmittal states:



17
  According to the Mortgage Brokers Association publication NewsLink, dated May 20, 2005, in the modern
residential real-estate market, 68 percent of loans involve brokers.


                                                     13
       . . . If HMDA and Regulation C are applicable, then the following examination
       procedures should be performed separately for the depository institution and any of its
       majority-owned mortgage subsidiaries. A separate checklist should be completed for
       each institution subject to HMDA and Regulation C.

Consistent and comprehensive documentation of HMDA compliance is essential in identifying
red flags in HMDA data and provides evidence that allows examiners to support potential fair-
lending violations. DSC needs to remind examiners to use the required checklist when
performing HMDA data reviews to ensure accurate and meaningful examinations of financial
institution compliance with consumer protection laws and regulations.

Recommendation

We recommend the Director, DSC:

(3) Emphasize that examiners should complete the required checklist for HMDA data reviews.


CORPORATION COMMENTS AND OIG EVALUATION

On September 27, 2006, the Acting Director, DSC, provided a written response to the draft
report. The response is presented in its entirety in Appendix IV of this report. DSC concurred
with all three recommendations.

Regarding recommendation 1, DSC stated that existing guidance on how to treat errors and
omissions of current year HMDA data is sufficient. However, DSC agreed that clarifying the
guidance would be beneficial. As a result, DSC will revise existing guidance by June 30, 2007,
to more clearly explain when it is appropriate to (1) discuss current year HMDA data
examination findings in the examination report and (2) resubmit corrected HMDA data to the
FRB.

For recommendation 2, DSC stated that examiners are very familiar with the reporting
requirements that relate to third-party residential mortgage lending relationships and agreed that
it is important to properly identify and document these relationships in the workpapers. As a
result, DSC will review existing guidance and, where necessary, issue revised guidance by
June 30, 2007.

For recommendation 3, DSC agreed that examiners are required to use the HMDA checklist to
document HMDA-related examination data reviews and will remind examiners to use the
checklist for those reviews within the framework of the FDIC’s refocused compliance
examination procedures. This message will be reiterated to supervisory staff by year-end 2006.

Appendix V contains a summary of management’s response to the recommendations.
Management’s planned actions are responsive to the recommendations. The recommendations
are resolved but will remain open until we have determined that the agreed-to corrective actions
have been completed and are effective.



                                                14
                                                                                   APPENDIX I


                      OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The audit objective was to determine whether the FDIC makes appropriate use of available
HMDA data to identify and assess instances of potential discrimination when examining an
institution’s compliance with relevant laws and regulations.

We performed our audit at the FDIC’s Washington headquarters office and two DSC regional
offices from January through July 2006 in accordance with generally accepted government
auditing standards.

Scope and Methodology

The scope of the audit included an assessment of the FDIC’s policies and procedures related to
how HMDA data should be used during the fair lending portion of compliance examinations, as
well as examiner compliance with those policies and procedures. We also reviewed the FDIC’s
efforts to review and assess compliance in institutions identified as having higher-priced loans.

Specifically, we reviewed:

¾ Regulations and legislative updates, including the HMDA of 1975, Regulation C (12 C.F.R.
  Part 203), and various transmittals, directives, and guidelines issued by the FDIC.
¾ The FDIC’s Compliance Examination Manual, dated July 31, 1999, and revised April 19,
  2006.
¾ DSC Regional Directors Memorandum 2005-006, Considering the New Home Mortgage
  Disclosure Act (HMDA) Pricing Information when Conducting Fair Lending Examinations
  of Institutions Subject to HMDA, dated March 2, 2005.
¾ DSC Regional Directors Memorandum 2004-015, Revised Interagency Examination
  Procedures for HMDA, dated May 3, 2004.
¾ FFIEC publication sent to institutions annually entitled, A Guide to HMDA Reporting –
  Getting It Right!, effective January 1, 2004.
¾ FFIEC Interagency Fair Lending Examination Procedures, dated August 19, 2004.
¾ Interagency Expanded Guidance for Subprime Lending Programs, dated January 31, 2001.
¾ FRB Bulletin, Summer 2005, article entitled, New Information Reported under HMDA and
  Its Application in Fair Lending Enforcement.
¾ DIR’s Description of FDIC Screens for HMDA Pricing Data, dated July 12, 2006.
¾ Examination documentation and reports for a judgment sample of 14 HMDA-reporting banks
  in the FDIC Atlanta and Dallas regional offices.
¾ DSC and DIR analyses and examination documentation for seven FDIC-supervised HMDA
  outlier institutions.

In addition, we interviewed:

¾ an FFIEC representative to obtain information related to the roles of the FFIEC and other
  agencies in the processing of HMDA data.



                                                15
                                                                                     APPENDIX I

¾ DSC and DIR officials in headquarters and staff in two FDIC regional offices.

Compliance With Pertinent Laws and Regulations

The audit addressed HMDA provisions, which are implemented by the FRB’s Regulation C.
Regulation C generally requires that institutions report the following data:

¾ Each application or loan, including the application date received; the action taken and the
  date of that action; the loan amount; the loan type and purpose; if the loan is sold, the type of
  purchaser; and for certain loans, some pricing information.
¾ Each applicant or borrower, including national origin or race, gender, and annual income.
¾ Each property, including occupancy status, location, and lien status.

As of 2004, Regulation C requires that lenders disclose pricing information (interest rates and
fees) for loans with prices above designated thresholds. Loans priced above the thresholds are
referred to as “higher-priced” loans.

Our audit reviewed FDIC examiners’ assessments of HMDA compliance by FDIC-supervised
institutions that are HMDA-reporting institutions. Appendix III contains additional details on
HMDA requirements.

Computer-based Data, Performance Measures, Fraud and Illegal Acts, and Internal
Controls

Validity and Reliability of Data from Computer-based Systems. We determined through
interviews and information available on the DSC Website that DSC’s System of Uniform
Reporting of Compliance and CRA Exams (SOURCE) system is the primary tool to track and
document compliance examinations of FDIC-supervised institutions. During the audit, we
conducted limited testing on SOURCE data to determine its accuracy as it relates to tracking
HMDA-reporting institutions, and we found inaccuracies in the data fields that identify those
institutions. We brought these inaccuracies to DSC's attention. For the purposes of this audit,
we did not rely on the SOURCE system data. Our assessment centered on interviews of DSC
and DIR staff and reviews of regional office bank files, examination reports, and examination
workpapers.

Performance Measures. We reviewed the FDIC’s annual performance plan and strategic plan
to determine whether the Corporation (1) has established quantifiable performance measures and
(2) developed and analyzed data to assess program, project, or function performance related to its
efforts to identify discriminatory lending in FDIC-supervised institutions. In fulfilling its
primary supervisory responsibilities, the FDIC pursues two strategic goals: FDIC-supervised
institutions are safe and sound; and consumers’ rights are protected, and FDIC-supervised
institutions invest in their communities. The second strategic goal directly relates to how the
FDIC promotes institution compliance with consumer protection and fair lending laws.

The FDIC has begun a supervisory and examination strategy to identify those institutions,
identified as having higher-priced loans, that pose a significant risk for discriminatory or abusive



                                                 16
                                                                                     APPENDIX I

lending practices. This strategy has been incorporated into a 2006 Corporate Performance
Objective, which is included under the section entitled, Sound Policy, and states, “The
Performance Objective is to promote sound policies regarding consumer safeguards, education,
and choice in the areas of access to the financial mainstream, fairness in the delivery of products
and services, and privacy and data security.” The action to address this objective is to complete
the HMDA Pricing Data Outlier Project approved by the Corporate Policy Committee as
follows:

¾ DSC regional offices will complete reviews of questionnaire data and submit
  recommendations for adjustments to the list of outlier institutions and revised examination
  schedules.
¾ The DSC-Washington office will issue revised lists of outlier institutions and consolidated
  examination schedules.
¾ Regional offices will submit quarterly progress reports during the year.
¾ Regional offices will submit final progress reports, with all necessary examinations initiated
  by December 29, 2006.

Fraud and Illegal Acts. The objective of this audit did not lend itself to specific steps for
providing reasonable assurance of detecting fraud or illegal acts. However, we were alert to the
potential for such activity, and we did not identify any illegal acts or abuse or potential areas
susceptible to illegal acts or abuse.

Internal Controls. We identified DSC’s internal controls related to the risk-focused
examination process for compliance examinations and systems used for measuring, monitoring,
and reporting program performance. Also, we reviewed the results of DSC Internal Control
Reviews related to compliance examinations. In addition, we determined that DSC conducts
internal control reviews under its Regional Office Review Program, which is organized into three
categories: Examination and Supervision, Management, and Administration. Each review covers
a 24-month period or the period since the last regional review, whichever is less. We reviewed
this information to gain an understanding of the applicable control environment. Additionally,
we reviewed and assessed internal controls applicable to examiners’ use of HMDA data. Our
testing identified several control deficiencies that are addressed in the previous sections of this
report.

Summary of Prior Audit Coverage

To date, there have been no OIG audits conducted that relate specifically to HMDA. However,
on March 26, 2002, the OIG issued Audit Report No. 02-009, The Division of Compliance and
Consumer Affairs' Risk-Scoping Process for Fair Lending Examinations. The objective of the
audit was to assess: (1) the adequacy of the FFIEC Interagency Fair Lending Examination
Procedures for the FDIC's pre-examination planning for fair lending examinations of small
banks, (2) the FDIC's implementation of the FFIEC interagency procedures as they relate to
identifying fair lending risks during the offsite pre-examination planning phase of the fair
lending reviews, and (3) the related management controls.




                                                17
                                                                                   APPENDIX I

We found that examiners generally followed the FFIEC interagency procedures when risk-
scoping the fair lending portion of 15 compliance examinations in our review. We did not find
instances of examiners expanding the scope of their reviews unnecessarily or limiting the scope
without justification. However, FFIEC interagency fair lending procedures did not provide
examiners with adequate guidance for conducting reviews of small banks, non-HMDA-reporting
banks, or commercial loan products. In addition, our review determined that: (a) due to the lack
of available monitoring and demographic data, examiners were often unable to apply risk-
scoping procedures to determine the potential for discrimination for many of the prohibited bases
covered by the Fair Housing Act and the Equal Credit Opportunity Act and (b) controls over the
fair lending risk-scoping process were generally effective, but documentation requirements
needed to be improved.

We recommended clarifying and reinforcing requirements that examiners adequately document
the scope of the work performed, including transaction testing and spot checks of the reliability
of the institutions’ compliance review functions, during the onsite portion of compliance
examinations. Management’s proposed actions were sufficient to resolve each recommendation.




                                               18
                                                                                                  APPENDIX II


                        HOME MORTGAGE DISCLOSURE ACT OF 1975

The Home Mortgage Disclosure Act (HMDA) is implemented by the FRB’s Regulation C.
According to Section 302(a) of HMDA, the Congress found that some depository institutions had
sometimes contributed to the decline of certain geographic areas by their failure to meet their
chartering responsibilities to provide adequate home financing to qualified applicants on
reasonable terms and conditions. According to the FRB, the purpose of HMDA is:

         . . . to provide the citizens and public officials of the United States with sufficient
         information to enable them to determine whether depository institutions are filling their
         obligations to serve the housing needs of the communities and neighborhoods in which
         they are located and to assist public officials in their determination of the distribution of
         public sector investments in a manner designed to improve the private investment
         environment.

HMDA regulations require depository and certain for-profit, nondepository institutions (such as
mortgage companies and other lenders) to collect, report, and disclose data about originations
and purchases of home mortgage, home equity, and home improvement loans. Institutions must
also report data about applications that do not result in originations.

In 2002, the FRB made a number of important changes to the disclosure requirements that
substantially increased the types and amount of information made available through HMDA
reporting. The 2002 revisions to Regulation C were intended to improve the quality,
consistency, and utility of the data reported under HMDA. The revisions were also intended to
ease regulatory burden, primarily by clarifying and simplifying parts of the regulation.
According to the FRB, the new requirements:

¾ expanded coverage to more nondepository lenders;
¾ streamlined the definitions of refinancing18 and home improvement loans;
¾ revised the definition of application to include certain requests for pre-approvals;
¾ mandated for the first time the collection of data on lien status, property code (site-built or
  manufactured homes), loan pricing, and HOEPA status;
¾ incorporated changes to the rules on collecting and reporting information on race and
  ethnicity to conform to guidance issued in 1997 by OMB;19
¾ required lenders to request the race, ethnicity, and gender of prospective borrowers who
  apply by mail, Internet, or telephone; and
¾ revised the categories that identify the type of institution to which loans are sold.

The most important change to Regulation C is the requirement that lenders disclose pricing
(interest rates and fees) for loans with prices above designated thresholds. Loans priced above
the thresholds are referred to as higher-priced loans. During 2004, for the first time, lenders
were required to start collecting information for higher-priced loans by the income level of the

18
   The new rules define a refinancing as a secured home loan that satisfies and replaces another secured home loan
by the same borrower. The reporting of home equity lines of credit (extended for any purpose) is voluntary.
19
   Revisions to the Standards for the Classification of Federal Data on Race and Ethnicity, Federal Register, vol. 62
(October 30) pp. 58782-90.


                                                         19
                                                                                     APPENDIX II

census tract in which the property was located and by borrower characteristics (income, race,
ethnicity, and gender). A higher-priced, first-lien loan has an interest rate of 300 basis points or
more above the yield for a Treasury security of comparable term. A junior lien loan is higher-
priced if it has an interest rate that is 500 basis points or more above the yield for a comparable
Treasury instrument.

The new loan price data are intended to advance enforcement of consumer protection and anti-
discrimination laws and improve mortgage market efficiency. Loan pricing data and other
HMDA data can be used by the agencies and others as a screening tool to identify aspects of the
higher-priced mortgage market that warrant a closer look to determine whether there is abuse or
discrimination. Also, lenders, community groups, government agencies, and others can use the
data to identify opportunities for private or public investment.

The FFIEC, acting on behalf of the federal regulatory agencies, has contracted with the FRB to
compile the reported information and prepare individual disclosure statements for each
institution and for each metropolitan statistical area. Disclosure and aggregate reports provide
detailed tables of data on individual loans and applications. In addition, the FFIEC also makes
available the characteristics of each census tract represented in the tables. For 2004, disclosure
statements for 8,853 HMDA-reporting lenders were prepared as follows:

¾   3,946 disclosure statements were for commercial banks;
¾   1,017 disclosure statements were for savings institutions;
¾   2,030 disclosure statements were for credit unions; and
¾   1,860 disclosure statements were for mortgage companies.

The 25 largest organizations, reporting the largest number of applications, accounted for
55 percent of the applications in the 2004 data.




                                                 20
                                                                                               APPENDIX III


                             FDIC OUTLIER SCREENING CRITERIA

The FRB provides a list of outliers for each federal banking regulator and has modified its
statistical analysis system for fair lending examinations to incorporate the new information
available in the expanded HMDA data.20 Additionally, the FDIC has established specific
screening criteria for HMDA data reported by FDIC-supervised institutions. The FDIC’s
screening assesses disparities in pricing rates for specific loan products and denial rates for
specific racial/ethnic groups. According to DSC, the screening criteria differ from those of the
FRB for several reasons, including but not limited to, the fact that the FRB combines data for
Blacks and Hispanics, while the FDIC separates data on race, and differences exist in
methodologies and definitions.

The FDIC’s screening evaluates pricing/denial rates for each racial group separately, assessing
disparities measured relative to pricing/denial rates evident for Non-Hispanic Whites.
Additionally, the FDIC’s screening assesses disparities in pricing and denial rates for a given
loan product using the following measures:

¾ Incidence of higher-priced loans: The difference between the percentage of the target group
  for which rate-spread information is reported and the percentage of the control group for
  which rate-spread information is reported.

¾ Average rate-spread: The difference between the average rate spread on higher-priced loans
  reported for the target group and the average rate spread on higher-priced loans reported for
  the control group.

¾ Incidence of HOEPA Loans: The difference between the percentage of loans to the target
  group and the percentage of the loans to the control group that are flagged as HOEPA loans.

¾ Denial Rates: The ratio of the target group denial rate to the control group denial rate.

The specific loan product categories the FDIC’s screening process analyzes are:

¾ owner-occupied, first lien: 1-4 family; home mortgage, home improvement, refinance, and
  manufactured housing loans;

¾ owner-occupied, second lien: home mortgage, purchase, home improvement, and refinance
  loans; and

¾ owner-occupied, unsecured: 1-4 family and manufactured housing, home purchase, home
  improvement, and refinance loans.


20
  The statistical analysis system uses HMDA data as a screen to identify those institutions and their specific
products that warrant closer review for fair-lending concerns. The FRB has shared the screening procedures with
other federal financial banking agencies so that, if they wish, they may integrate them into their supervisory
programs. Additionally, the FRB is responding to agency requests for additional, more detailed analysis of the
individual institutions that may be of concern to the agencies.


                                                       21
                                                                                                     APPENDIX III

Using 2004 HMDA data, DIR developed screening tools, based on DSC’s criteria, which
analyzed pricing disparities for specific mortgage products and racial ethnic groups. Two
screening tools focus on the analysis of disparities in the incidence of higher-priced loans and in
the average spread on higher-priced loans for minorities compared to non-Hispanic Whites:

¾ The macro-screen21 analyzes HMDA data for all FDIC HMDA-reporting institutions,
  ranking disparities and identifying the outliers. DIR used macro-screens to rank FDIC-
  supervised institutions in terms of the pricing disparities evident for minorities in the 2004
  HMDA data and provided DSC with the rankings.

¾ The micro-screen22 analyzes the HMDA data for one bank only and runs statistical tests on
  observed pricing disparities.

HMDA Pricing Data Review Procedures

DSC Transmittal 05-006, Considering the New Home Mortgage Disclosure Act (HMDA) Pricing
Information when Conducting Fair Lending Examinations of Institutions Subject to HMDA
(March 2, 2005), provides guidance on how the new pricing information available in the 2004
HMDA data are to be considered when conducting fair lending reviews of financial institutions,
that is, HMDA reporters, that make certain higher-priced loans. This guidance requires
examiners to consider the new HMDA pricing data during each compliance examination.
Pricing analyses are triggered only when a rate spread or HOEPA loan is reported on the banks’
HMDA data.

According to Transmittal 05-006, when pricing-related information is reported, it should be
reviewed in the scoping stage of the examination, and the results of this review should be
explained in the scoping section of the Fair Lending Memorandum. Where the scoping analysis
identifies a risk of discrimination, a comparative file analysis should be conducted to determine
the reason for the pricing differences. A comparative pricing analysis in a fair lending review
typically involves a statistical analysis of all pricing decisions for a credit product made by the
institution for a specified period. According to the Transmittal, this analysis is conducted most
efficiently when regional staff, DSC Washington fair lending staff, and statistical experts in DIR
(who conduct the pricing-related statistical analysis) coordinate their efforts. The Transmittal
also states that significant disparities in either the frequencies or amounts of pricing-related data
do not, in and of themselves, indicate a high risk of pricing discrimination and that examiners
should determine how the institution prices each loan product in which significant disparities
exist.

The new HMDA information allows for a better understanding of lending activity in the higher-
priced segment of the home-loan market, which is now a substantial part of the market. The
21
   The “macro” screening technique for higher-priced loans uses the HMDA data file for FDIC-supervised
institutions and ranks the institutions in terms of pricing disparities observed for specific loan products and specific
protected groups (racial/ethnic groups and females). These rankings are used to generate lists of “high-risk”
institutions from a fair-lending examination perspective.
22
   The “micro” screening tool for higher-priced loans uses LAR data for an individual bank to analyze the pricing
data at the bank level and perform simple statistical tests on observed pricing disparities. The output of the micro
screens can be used to help examiners decide whether to expand the scope of an ongoing fair lending examination.


                                                           22
                                                                               APPENDIX III

growth of this market segment, while affording some consumers greater access to credit, has
been accompanied by concerns about abusive lending practices.




                                              23
                       APPENDIX IV


CORPORATION COMMENTS




         24
     APPENDIX IV




25
                                                                                                                                                    APPENDIX V

                                                MANAGEMENT RESPONSE TO RECOMMENDATIONS

     This table presents the management response on the recommendations in our report and the status of the recommendations as of the
     date of report issuance.

                                                                                                                                                          Open
      Rec.                                                                                      Expected              Monetary         Resolved:a          or
     Number                Corrective Action: Taken or Planned/Status                        Completion Date          Benefits         Yes or No         Closedb
                    DSC will revise existing guidance to more clearly explain
            1       when it is appropriate to (1) discuss current year HMDA
                                                                                               June 30, 2007             None              Yes            Open
                    data examination findings in the examination report and
                    (2) resubmit corrected HMDA data to the FRB.
                    DSC will review existing guidance related to identifying
                    and documenting third-party residential mortgage lending                   June 30, 2007             None              Yes            Open
            2
                    relationships and, where necessary, issue revised guidance.
                    DSC will remind examiners to use the checklist for HMDA
            3       data reviews within the framework of the FDIC’s                            Year-end 2006             None              Yes            Open
26




                    refocused compliance examination procedures.
     a
         Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                   (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                   (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                       as management provides an amount.
     b
         Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.
